<html>
<title> - [H.A.S.C. No. 115-30] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2018 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


.                                    

                         [H.A.S.C. No. 115-30]

                                 HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       SUBCOMMITTEE ON READINESS

                          MEETING JOINTLY WITH

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                                   ON

            THE CURRENT STATE OF U.S. TRANSPORTATION COMMAND

                               __________

                              HEARING HELD
                             MARCH 30, 2017
                                     
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-146                       WASHINGTON : 2018                     
                                             
  
  
  
  
  
  
  
  
  
  
  

                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Margaret Dean, Professional Staff Member
                Brian Garrett, Professional Staff Member
                          Jodi Brignola, Clerk

                                 ------                                

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
DUNCAN HUNTER, California            DONALD NORCROSS, New Jersey
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
STEPHEN KNIGHT, California           A. DONALD McEACHIN, Virginia
RALPH LEE ABRAHAM, Louisiana
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Jodi Brignola, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     4

                               WITNESSES

McDew, Gen Darren W., USAF, Commander, United States 
  Transportation Command.........................................     5

                                APPENDIX

Prepared Statements:

    McDew, Gen Darren W..........................................    33
    Wilson, Hon. Joe.............................................    29
    Wittman, Hon. Robert J.......................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Hanabusa.................................................    59
    Mr. Langevin.................................................    59
            
            
            THE CURRENT STATE OF U.S. TRANSPORTATION COMMAND

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Readiness, Meeting 
            Jointly with the Subcommittee on Seapower and 
            Projection Forces, Washington, DC, Thursday, 
            March 30, 2017.

    The subcommittees met, pursuant to call, at 9:02 a.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the Subcommittee on Readiness) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Ladies and gentlemen, I call this joint hearing 
of the Subcommittee on Readiness and Seapower and Projection 
Forces of the House Armed Services Committee to order.
    I am pleased to welcome members of the Seapower and 
Projection Forces and the Readiness Subcommittees to the 
hearing today for an unclassified session on the current state 
of U.S. Transportation Command [TRANSCOM].
    I would especially like to thank Congressman Rob Wittman, 
chairman of the Seapower and Projection Subcommittee, and 
Congressman Joe Courtney, the ranking member of the Seapower 
and Projection Forces Subcommittee, joining us today in our 
effort to better understand the topic.
    This hearing follows a series of hearings and briefings 
highlighting the individual readiness challenges of each 
military service, which further confirms that our services are 
indeed in a readiness crisis.
    The cornerstone of the U.S. military is its service 
members. Underpinning their success is the ability of our 
soldiers, sailors, airmen, and Marines to go where they are 
needed and to have fully operational equipment ready to be 
used.
    While I firmly believe the United States military remains 
the world's best, I am concerned about shortfalls in readiness 
and the trend lines that we see. U.S. Transportation Command 
enables our military to deliver an immediate and powerful force 
against U.S. adversaries anywhere in the globe through airlift, 
air refueling, and our strategic sealift.
    As members of these subcommittees know, U.S. Transportation 
Command will always answer the Nation's call. But there are 
challenges that demand our attention today to ensure the 
readiness of our military. I reiterate my belief that the first 
responsibility of the Federal Government is to provide for the 
security of its citizens, to accomplish for citizens what they 
cannot do for themselves. Therefore, it is our responsibility 
as members of these subcommittees to continue to better 
understand the readiness and force structure situation of the 
United States Transportation Command, to understand where we 
continue to take risk and understand where more attention is 
needed.
    I would like to welcome our distinguished witness who we 
are honored to have with us today. General Darren W. McDew, 
U.S. Air Force, Commander of the United States Transportation 
Command. And I do like to point out that Congressman Wittman 
and I were both commenting just now, a distinguished graduate 
of the Virginia Military Institute of Lexington, Virginia.
    I thank you for testifying today and look forward to your 
thoughts and insights as you highlight the current state of the 
U.S. Transportation Command.
    I would like to now turn to the ranking member of the 
Seapower and Projection Forces Subcommittee, also ranking in as 
member of the Readiness Subcommittee, Congressman Joe Courtney, 
for any remarks you may have.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 29.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman. And thank you again 
to my colleague from Virginia, Mr. Wittman, for coordinating 
this joint hearing this morning. It is a good, efficient way to 
get, you know, the message out to as large a group of us as 
possible.
    And I think this hearing offers an important opportunity 
for our two panels to receive a timely update on the readiness 
status of the U.S. Transportation Command, which plays a 
critical but too often overlooked role in our airlift and 
sealift capabilities. Getting the people, supplies, and 
equipment to the locations they are needed when they are needed 
is one of the foundational pieces of our Nation's ability to 
project power around the globe.
    Under TRANSCOM, the mix of organic military assets and 
commercial partners makes a powerful combination that must be 
carefully managed and sustained. And while I believe that 
TRANSCOM remains ready today to fulfill its important mission, 
I am concerned about some of the longer term challenges it will 
face without action by Congress.
    For example, while the emerging buildup of our Navy fleet 
has received significant attention in the recent months, the 
state of our sealift capabilities is just as important. Many of 
the sealift ships that reside in the fleet today are the result 
of congressional urging and funding due to insufficient 
prioritization and planning within the executive branch.
    As the Navy potentially embarks on an increased 
shipbuilding initiative for combatants to support the new FSA 
[Force Structure Assessment], it is just as critical that our 
sealift requirements are not once again sidelined. America's 
Ready Reserve fleet and the vessels within the Maritime 
Security Program [MSP] are strategic and irreplaceable national 
assets. And like other strategic assets, we must ensure that we 
do all we can to maintain, support, and replace the ships that 
comprise them.
    I am deeply concerned, however, that we have not paid 
enough attention as a nation to the health and viability of our 
pool of vessels or the mariner pipeline needed to crew them. As 
we look at addressing some of the more urgent near-term needs 
facing our sealift capability, it is important as well to have 
a clear and long-term path towards fully recapitalizing our 
sealift fleet and the mariners needed to man them.
    In the near term, I believe we need to take action to 
ensure that the MSP has the resources and support it needs. 
Chairman Wittman and I have teamed up to lead a bipartisan 
letter of more than 50 other Members to the House appropriators 
urging them to fully fund the Maritime Security Program for 
fiscal year 2018. The Maritime Security Program provides an 
extremely cost-effective means of ensuring critical sealift 
capability during times of crisis and deserves strong support 
as we consider the budget in the months ahead.
    I am also proud that the Seapower Subcommittee has led the 
way to assure that we continue to have the ability to train the 
next generation of mariners that will support our sealift 
needs. Last year, we authorized the construction of a national 
security multimission vessel that will replace the aging fleet 
of training ships allocated to our State maritime academies. 
Together, these institutions provide the majority of our 
Nation's trained mariners, and this program is key to ensuring 
that we protect and grow this vital pipeline.
    Equally important to America's ability to deliver the fight 
is our strategic airlift capacity. This subcommittee has 
strongly supported the recapitalization of key assets, like the 
KC-46A tankers, while also backing cost-effective modernization 
efforts of other platforms like the C-130H fleet and the C-5Ms. 
While each service must balance competing efforts to restore 
readiness, as we have heard during the state of the Air Force 
hearing last week, continued modernization efforts in our C-
130H fleet must be prioritized as a relatively inexpensive 
means of maintaining critical capacity.
    And we heard a shout out for Virginia a few minutes ago. I 
just want to recognize that the C-130H airlift wing of the 
Connecticut Flying Yankees, I say that grudgingly as a Red Sox 
fan, are deployed right now overseas supporting the important 
mission in the Middle East. And, again, that was a lot of hard 
work, and I want to thank the Air Force and the Air Force 
Reserves for basically getting that flying mission back in 
action again.
    And again, I want to thank the general for being here 
today, and again, salute his outstanding service to our Nation.
    And with that, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Congressman Courtney, and thank you 
for being dual-hatted today, serving as also the ranking member 
of the Readiness Subcommittee. Congresswoman Madeleine 
Bordallo, I know, would want to be here today, but she is back 
in Guam, the beautiful territory of Guam, to provide a 
presentation on--her annual presentation on service in Congress 
to the people of Guam, and we know of her great affection for 
the beautiful territory of Guam.
    I now turn to the gentleman from Virginia and chairman of 
the Seapower and Projection Forces Subcommittee, Congressman 
Rob Wittman, for any opening remarks that he may have.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. Well, thank you, Mr. Chairman.
    And, General McDew, welcome. Thanks so much for all of your 
time and effort on this extraordinarily important issue. And in 
deference to that great school there in Lexington, ``Go 
Keydets.''
    I also want to thank Chairman Wilson for offering to have 
this joint subcommittee hearing today. And I believe that there 
are a number of overlapping issues with the Readiness 
Subcommittee, and I look forward to working with the 
distinguished gentleman from South Carolina to make sure we 
move these issues forward in this year's NDAA [National Defense 
Authorization Act] markup process.
    General McDew, as you know, we are a seafaring nation, and 
this was the vision of our Founding Fathers when they 
commissioned the U.S. Navy in 1775, and our seafaring nature is 
now the bedrock of our economy. Today, merchant ships carry 
around 90 percent of everything, with that total amount having 
more than tripled since 1970. Unfortunately, our national 
security--unfortunately for our national security, this 
seaborne trade is being increasingly outsourced to other 
nations, and our own merchant fleet is in rapid decline.
    Between the years 2000 and 2014, our U.S. commercial fleet 
has shrunk from 282 vessels to 179 vessels, a reduction of 
almost 40 percent. This decline in our commercial fleet 
increasingly represents a national security challenge because 
the mariners that support our commercial sector will be used 
extensively by the U.S. Transportation Command during times of 
war or mobilization. The Maritime Administration has indicated 
that our commercial sector does not have sufficient mariners to 
sustain a prolonged mobilization of our Ready Reserve forces.
    Our Nation cannot presume that a foreign-owned maritime 
sealift component will be available during times of conflict to 
deploy into contested waters. Our Nation needs U.S. mariners on 
U.S.-flagged ships.
    As our strategic airlift capabilities, today we depend on a 
much smaller fleet to move cargo, personnel, and to medevac the 
wounded from more remote battlefields than during the Desert 
Storm era. Even with the larger Desert Storm force, a 1993 RAND 
study found that more than 60 percent of our troops and 23 
percent of the cargo airlifted in or out of the theater went by 
the private sector.
    In future major theater wars, the Civil Reserve airlift 
fleet may be asked to absorb even more of the demands for cargo 
and troop movements. I am concerned that outdated planning 
assumptions need to be reviewed. The new administration has 
made it clear that it wants to increase Army and Marine Corps 
force structure. However, at the same time, areas of the globe 
are becoming less permissive for civilian aviation operations 
to deliver these additional soldiers and Marines to their areas 
of operation. I believe TRANSCOM should thoughtfully consider 
how to best increase strategic airlift capacity in its ability 
to operate in contested environments around the globe.
    I thank Chairman Wilson for working within the Seapower and 
Subcommittee Projection Forces Subcommittee on this important 
issue, and I yield back the balance of my time.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 31.]
    Mr. Wilson. Thank you, Congressman Rob Wittman of Virginia.
    We now begin with the opening statement from General McDew. 
We look forward to your testimony today.

   STATEMENT OF GEN DARREN W. McDEW, USAF, COMMANDER, UNITED 
                 STATES TRANSPORTATION COMMAND

    General McDew. Good morning, Chairman Wilson and Wittman, 
Ranking Member Courtney, and distinguished members of both 
subcommittees. It is an honor and I am nearly giddy this 
morning to have the privilege to be here with you today 
representing the fine men and women of the United States 
Transportation Command. I thank you for your continued support 
of our dedicated professionals who are all working together to 
provide our Nation with a broad range of strategic capabilities 
and options.
    I also want to emphasize the vital role that you mentioned 
that our commercial industry, who I call our fourth component, 
plays in our success. As I appear before you today, I can say 
confidently that your United States Transportation Command 
stands ready to deliver our Nation's objectives anywhere and 
anytime. We do this in two ways.
    We can provide an immediate force tonight through the use 
of our airlift and air refueling fleets, and we can provide 
that decisive force, when needed, through the use of our 
strategic sealift and surface assets. You see evidence of this 
every single time you read or watch the news.
    When North Korea increased its provocation of our Pacific 
allies, America responded with assistance. USTRANSCOM delivered 
that assistance in the form of missile defense systems, 
personnel, and support equipment flying 3,000 miles within a 
matter of hours. When you read about America's brigade combat 
teams rolling through Europe, it was USTRANSCOM's ability to 
provide a decisive force to reassure our European allies. When 
America needed B-2 Stealth bombers to fly 11,000 miles from 
Missouri to Libya and back to deliver over 100 precision 
weapons, our air refuelers got them there.
    From national disasters to epidemics to acts of war, the 
men and women of USTRANSCOM are standing ready to deliver this 
Nation's aid, assistance, and hope to a world in need. These 
missions must execute seamlessly and without fail. All the 
while these great professionals quietly manage a myriad of 
daily tasks around the globe, which most Americans will never 
hear or read about.
    It takes, I believe, great diligence, skill, and innovation 
to provide that kind of readiness for America, and since 1987, 
nearly 30 years now, the men and women of USTRANSCOM have never 
let this Nation down. I am proud to serve next to them, and I 
say with confidence that our organization is ready to respond 
when our Nation calls. Now, I have great confidence, but my 
confidence comes, however, is not without concern.
    The environment we operate in today is increasingly 
complex, and we expect future adversaries will be more 
versatile and more dynamic, forcing us to adapt, change, and 
evolve. Furthermore, as Chairman of the Joint Chiefs General 
Joe Dunford laid out in his vision for our future, we are 
viewing potential adversaries through a transregional, 
multidomain, and multifunctional lens. Properly understanding 
the potential threats from China, Russia, Iran, and North 
Korea, as well as worldwide global violent extremists, in the 
global context, is of utmost concern, and it is a concern for 
our national security.
    In each of these scenarios, I believe, logistics plays a 
critical but often overlooked role. Today, USTRANSCOM is 
critically examining how we execute our logistics mission in 
the contested environments of the future, a space we haven't 
had to operate in, at least logistically, for a very, very long 
time. We are exercising in wargaming scenarios, forcing 
planners to account for transportation's vital role and 
potential loss.
    Earlier this year, USTRANSCOM held its first ever contested 
environment war game, imagining a scenario where we didn't, 
hard to believe, dominate the skies or own every line of 
communication. This war game uncovered a surprising amount of 
lessons learned, which we have already started absorbing into 
our tactics, techniques, and procedures accordingly.
    I am also concerned about our national strategic sealift 
capability. A delay in recapitalizing our military sealift 
fleet creates risk in our ability to deploy forces across the 
globe. These concerns are compounded further by merchant 
mariner shortages and the reduction of U.S.-flagged vessels. 
Today, our resources make us capable of meeting today's 
logistics needs. However, if we don't take action soon, many of 
our Military Sealift Command [MSC] vessels will begin to age 
out by 2026. A significant portion of the DOD's [Department of 
Defense's] wartime cargo capability moves on these ships.
    My final concern is one that runs throughout our operations 
and no doubt concerns us all. The cyber threat. We aren't the 
only government agency to face these threats, but USTRANSCOM 
has a unique problem set. Unlike other combatant commands, 
commercial industry plays a vital role in how we accomplish our 
mission. The DOD's information network is relatively secure, 
but how do we guarantee the security of military data on 
commercial systems?
    In short, we operate in an ambiguous seam between DOD and 
DHS [Department of Homeland Security]. Our mission includes 
both dot-mil and dot-com domains. We are accelerating several 
initiatives and also our thinking to help try to close that gap 
between DOD and DHS.
    Also, before I conclude, I would like to extend my 
gratitude to Ms. Vickie Plunkett, a member of the Readiness 
Subcommittee professional staff, for her dedication and her 
work with USTRANSCOM. To our Nation's benefit, she has always 
asked the tough questions, and she knew how to match Congress' 
intent to the capabilities TRANSCOM delivers. We thank her for 
all she has done for the Nation and wish her the very best in 
retirement.
    Thank you again, Chairman Wilson and Wittman and Ranking 
Member Courtney and members of the subcommittees, for inviting 
me,interesting, inviting me to speak to you today. I 
respectfully request my written testimony be submitted for the 
record, and I look forward to your questions. Thank you.
    [The prepared statement of General McDew can be found in 
the Appendix on page 33.]
    Mr. Wilson. General, thank you very much. And we have just 
been notified that we may be having votes around 10:00, and so, 
fortunately, we have Margaret Dean here who is going to 
maintain a strict 5-minute rule beginning with me, and so it 
shall begin.
    And I am really grateful, again, that you are here and the 
challenges that you have indicated that become even more 
gruesome as you approach 2026. But additionally, in line with 
that, every week we read about potential adversaries 
challenging our freedom of navigation by air or sea in areas 
such as the South China Sea, Straits of Hormuz, and the Baltic 
Sea.
    Is TRANSCOM prepared to deliver combat capability in these 
potentially contested areas?
    General McDew. Chairman, this is a new challenge for us. 
For 70 years, we have had domain dominance. We haven't been 
challenged in any domain for as long as I can remember in my 
military service and long before that, so it is definitely 
something we are now coming to grips with.
    Our contested environment war game that we had recently 
that had 64 different agencies, part of it every COCOM 
[combatant command], everybody in the logistics community, some 
commercial partners and others, has brought us to the 
realization that we can't always assure that everything we send 
in a direction will make it. We can't always be sure that we 
will have the clear lines of communication that we need.
    We haven't, to this point, planned for any losses in 
logistics. It is 100 percent success, and 100 percent of the 
things get there at 100 percent of the time. I don't think that 
is a valuable proposition going forward to think that way, so 
we are changing the way we think, and we are putting it into 
every exercise to try to get at it differently.
    Mr. Wilson. Thank you very much for being so proactive. And 
you mentioned, of course, cyber as a threat. With the threats 
increasing, are they impacting readiness? Are there any threats 
or challenges in this domain that are unique to TRANSCOM and 
may not be currently addressed by DOD or the interagency? If 
so, what is being done to ensure operational security in the 
cyber realm?
    General McDew. Chairman, we spent--about a year ago, we 
started down a path of discovery on cyber. We were not ready to 
have this kind of dialogue a year ago when I sat in front of 
you. I was understanding that the threat was approaching, but I 
didn't understand the depth of the problem. We have had three 
cyber roundtables over the last 18 months, and in those cyber 
roundtables we have had academia, we have had business leaders, 
we have had hackers join us to take us from cyber awareness to 
cyber knowledge. And now we understand how nervous we should be 
in this domain.
    The seam that exists between DOD and DHS is a real seam for 
us. Because we have 90 percent of my activity on a daily basis 
runs through the commercial networks, we are becoming more and 
more vulnerable because those commercial assets are part of 
national security. Our industrial base is part of national 
security in my realm, and I don't believe that we protect the 
rest of the Federal Government the same way we protect inside 
of DOD. So that is our challenge, and we are trying to bridge 
that gap and make that understanding more relevant.
    Mr. Wilson. Well, again, thank you for being so proactive, 
and the changes over the past year certainly are positive.
    Our government continues to operate under a continuing 
resolution. The military services are taking risks to prevent 
capability gaps. How will a full year of continuing resolution 
impact U.S. Transportation Command's readiness? Are there 
cascading impacts to the service members or their families? Are 
we breaking faith with the service members and their families?
    General McDew. Chairman, a continuing resolution is not 
good for anybody, really. Directly impacting U.S. 
Transportation Command, they are not as prevalent as they are 
in the services, but that is a direct indirect on USTRANSCOM.
    So as the services individually take risks in their 
portfolio because of their lack of ability to plan or to 
program for different things, and they take risks in what they 
can continue to operate, it disproportionately impacts the 
logistics and transportation communities. If a Marine decision 
is made to take a risk in logistics, if an Air Force makes the 
decision to take risk in logistics and so on, all of those are 
compounded by the time they come to my joint command at U.S. 
Transportation Command. And what I have seen over--through 
sequestration and years of continuing resolutions, is that is 
starting to now hurt in ways in the services and now in my 
enterprise.
    Luckily, I have the transportation working capital fund 
that allows me to continue to operate, but the resourcing, the 
ability to get after how many C-5s we have available and 
flying, how many C-17s are in the Active Duty force, all of 
those are impactful now.
    Mr. Wilson. Thank you very much.
    We now proceed to Congressman Courtney.
    Mr. Courtney. Thank you, General. I am just going to ask 
really one area and give some of the members a chance to jump 
in because I know we are going to have votes coming up pretty 
fast.
    So again, one of the--your command really is an interesting 
one because you kind of have your feet in a lot of different 
other agencies that fall outside of DOD. And, you know, one of 
the issues that we have tried to work on Seapower over the last 
couple of years is really this workforce issue in terms of just 
making sure that we have merchant mariners ready to perform the 
mission that you quarterback. And obviously, one of the big 
needs is having training vessels at the maritime academies.
    And again, that is not directly under your portfolio, but I 
just wonder if you could sort of--we put some authorizing money 
to jump-start design and construction of some new vessels, and 
if you have any thoughts or perspective, we would--you know, 
that would be helpful in terms of trying to create a record as 
we go into next year's NDAA.
    General McDew. As you know, the merchant mariner force is 
the bedrock to how we move the force in our country. It makes 
the difference between us being the most powerful military in 
the world and us not being the most powerful military in the 
world. There are nations around the world that wish they had 
the power projection ability we have.
    The mariner force we have today is insufficient to go to 
war for an extended period of time. We have got to continue to 
grow and nurture that seed corn that comes from the State 
military academies. I have met with many of them. I am about to 
do another commissioning or graduation speech and another one 
pretty soon. Some great Americans serving their nation in a 
powerful way, and we have got to give them better training 
tools, and we need to change it fast.
    Mr. Wilson. Thank you.
    We now proceed to Chairman Rob Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General McDew, thanks again. Thanks so much for your 
service.
    I wanted to talk about the--well, for you to give us your 
perspective on the--first of all, the importance of the Ready 
Reserve fleet. Secondly, today, is there the capacity there for 
a full mobilization, if necessary? And this other realm is, if 
we lose a couple of hundred additional merchant mariners, is 
Ready Reserve fleet even in a position to be able to begin an 
initial activation for moving supplies and personnel to an 
engagement? So can--give us your perspective on that.
    General McDew. Thanks, Chairman. The Ready Reserve fleet, 
about 61 strong ships, is aging rapidly. We have ships as old 
as 54 years in the fleet, and the average age is somewhere 
around 39 years in this fleet. Not optimal. We are working very 
strongly with the United States Navy on a recap 
[recapitalization] program that is going to have to be 
multifaceted.
    But to get to the core of your question, are we ready right 
now? We have found some readiness cracks over the last few 
months on being able to activate these ships and get them 
underway. We believe we have the numbers of ships to be able to 
start the initial deployment and maybe the second round of 
deployment, but maybe beyond that, we are starting to be hurt 
by how available these ships will be and the capacity of the 
mariners.
    I think the first impact we will have is the mariners--we 
will fall short of the mariners. So 11,280 by MARAD [U.S. 
Maritime Administration] is what we need, but that has some 
assumptions that all of those mariners will be available right 
when we need them. I am not sure that is an assumption we can 
hold to.
    There are larger numbers of mariners out there, but the 
standards we put on them, we would like our mariners to have at 
least 18 months of relatively current training before we put 
them onboard to go to war, so there is other things we have got 
to look at. The NDAA this past year put together a working 
group to get after the mariner question in more depth. U.S. 
Transportation Command will work with the Coast Guard and MARAD 
to get after those numbers and more.
    Mr. Wittman. I want to look at a little bit now about our 
airlift capacity. As you know, you have been looking at what 
the increased demand signal will be for increasing the number 
of soldiers and Marines, and the airlift capacity that goes 
along with that in having to move those individuals to 
theaters, if necessary. We know that the Civil Reserve Air 
Fleet [CRAF] has a certain amount of capacity. We also know 
that within the current lift capacity within the Air Force, it 
is--it has been static at best.
    We know the C-17 line now is closed. We do know, though, 
that we have 27 C-5s in storage at the Aerospace Maintenance 
Regeneration Group out in Tucson. The question then becomes is 
looking at CRAF and looking at the current capacity with 
airlift within the Air Force and TRANSCOM assets, should 
TRANSCOM consider increasing the strategic lift capacity by 
returning the C-5 aircraft to service through the C-5M model 
conversion program as we are upgrading or bringing those 
aircraft back in? Should that be something that we look at to 
make sure that going forward we have that capacity?
    General McDew. Chairman, thanks for that question and the 
opportunity to talk a little bit about airplane stuff, which I 
don't get a chance to talk to about much anymore. Our capacity 
on the lift side is being challenged. As we drew back forces 
from overseas locations, I mean, when I was a youngster, there 
were 300,000 soldiers in Europe. Now, there is about 60,000 
soldiers in Europe. As I talked to General Scaparrotti, his 
concern is how we can get the forces to him in time. That 
primarily, without great indications and warnings, will be 
airlift and air refueling, so that is a concern.
    I would first like to start with where the Air Force is 
taking risk in its portfolio today. So a couple of years ago, 
the Air Force decided to put two squadrons of C-17s in back of 
inventory, purely a fiscal decision, not because the airplanes 
weren't performing or the squadrons weren't performing, and 
took down two flagged on Active Duty, put them in backup 
inventory. We also put eight C-5s in backup inventory. What 
that has done is put us closer on the risk scale of what we can 
move when.
    The plan is for the Air Force to be able to afford to bring 
those airplanes back from backup inventory into primary 
inventory and put them in the Guard and Reserve.
    I love the Guard and Reserve. I am a big advocate for the 
Guard and Reserve, but what we now have is a problem of 
balance. We now have so much assets in the Guard and Reserve 
because, initially, we thought it was going to be cheaper and 
that risk was more affordable there, but then it becomes a 
timing issue. Those guardsmen and reservists aren't at their 
duty locations every single day ready to respond immediately.
    When they come up on duty 30 days in, I have great faith 
and confidence in their ability, but what can we do to hasten 
those airplanes being brought back into primary inventory, 
because we need those assets to get to moderate level of risk.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. And thank you, Chairman.
    And we now proceed to Congressman John Garamendi of 
California.
    Mr. Garamendi. Thank you, Mr. Wilson.
    I guess I was surprised when I found my colleague and chair 
of our--the Navy talking about the Air Force. So here I am, I 
am going to talk about the Navy. So let's go at that.
    The mariner issue, there has been some discussion--my 
apologies for having to step out. There was another general 
who--Mr. Oliver--General Oliver who wanted to talk about some 
of the issues that are your turf also.
    Where to go here. In your written testimony, General, you 
talked about the problem of the Ready Reserve, the MSP, and the 
fact that we don't have--we will not have many mariners in 
another 10 years or even 5 years. And I understand, in my 
absence, Mr. Courtney brought up the issue of training and the 
training ships, all of which are important, but the fundamental 
problem is there won't be any place for these mariners to work. 
And I believe some of the earlier discussion centered on the 
fact that our commercial maritime fleets all but disappeared, 
and so we may train people, but where are they going to work.
    And so what I want to really get into here is detailed on 
how--what your plans are to deal with the Ready Reserve fleet 
and then the MSP fleet. The MSP, I believe, there was a 
discussion earlier about the necessity of the subsidy. I think 
we are in agreement on that. Whether there is money for it or 
not, that is another question.
    But nonetheless, that is not where I want to go. I want to 
go to the ships. I want to hear your discussion about what to 
do with the ships for the Ready Reserve. I noticed that they 
are aged. So, please, if you will get into that in some detail 
with us.
    General McDew. Congressman, the Ready Reserve fleet is a 
vital part of our portfolio to be able to project--a vital part 
of our portfolio to be able to project the Army particularly to 
war. Those 60 ships are the ones we have available initially to 
get moving.
    You are correct. We are having an issue with the maritime 
community writ large, the lack of cargo. But if you get back to 
the Ready Reserve fleet, we are working with the United States 
Navy to recapitalize that fleet that is averaging now 39 years 
of age. Some of them are as old as 54 years. We are starting to 
see cracks in their availability. When we activate those ships 
for readiness, they are not always getting underway.
    Now, right now, today, I have got five of those ships 
globally engaged working fine. But we need more than just the 
five, and I am sure we have more availability than just five, 
but we are finding that we don't have 100 percent availability 
of those ships.
    The recap of those ships will take a multifaceted solution. 
Rebuilding new ships is where we all want to go. That won't 
happen very, very quickly. I would guarantee that the CNO 
[Chief of Naval Operations] of the Navy probably doesn't want 
to put my sealift ships at the top of his list when he is going 
to recap the Navy. I understand. So but that is part of the 
portfolio.
    The other part is to see if we can service life extend some 
of our younger ships out a few more years to bridge the gap. 
And I believe we ought to consider what we can do with some of 
the ships we are using every day in the Maritime Security 
Program, those U.S.-flagged ships with U.S. mariners that we 
are using every single day, can we buy some of those used ships 
and put them in the Ready Reserve fleet to augment that force? 
Some of those ships are available at 10 to 15 years of service, 
and we can use those for a number of years as a bridge.
    Mr. Garamendi. In doing so, we come up against what I think 
is a fundamental issue, and that is, are they American built? 
And this is something we are going to have to wrestle with as a 
team here. And I think most of us are advocates of buy America, 
build America, and we may find that some of those ships that 
you want to buy may not be American made. We need to work our 
way through that.
    I am going to take my last 40 seconds here to really lobby 
my colleagues here on the dais.
    We can expand the American maritime fleet, the commercial 
maritime fleet by requiring that the export of oil and gas be 
on American-built ships. And we can start at 10, 15 percent and 
then ramp it up. That would give us an opportunity for mariners 
to be trained and ready for the Ready Reserve or the MSP.
    We can also build ships by requiring that those ships be 
American built. There is legislation to do this. This is part 
of what the subcommittee in the Transportation, Coast Guard, 
and Maritime Committee is working on, so I am going to lobby my 
members here on that.
    But we really need detailed plans, General, from you on how 
you are going to transition this. It fits directly with the 
work that we are doing over in the Transportation Committee. 
And it is possible, it is going to take some money, and 
frankly, it is going to take some of that 54 additional ships 
that the Navy wants to be the--to be this piece of it.
    With that, I best yield back because I am 37 seconds over.
    Mr. Wilson. Thank you, Congressman.
    We now proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    General, great to see you. I want to reiterate the 
importance of our merchant marines and the Merchant Marine 
Academy; whatever challenges we have there, we need to overcome 
those challenges and move forward. Those young men and women 
there are a tremendous asset to the United States, and I know 
that you couldn't function without them.
    I want to go back to what my friend Rob Wittman brought up 
on the C-5s. I represent Robins Air Force Base, obviously, one 
of the three Air Force depots. We do depot level maintenance on 
the C-5 Galaxy, the C-17 Globemaster for the strategic airlift, 
the C-130 Hercules for tactical airlift. You stated that we are 
seeing stress on the strategic airlift fleets, in your 
testimony.
    Would you please expound on these stresses and what the 
concerns are? And can you outline for me the plan for large 
airlift platforms like the C-5, if we intend to bring them 
back? And then one final question. I am extremely concerned as 
we look at Europe, because we don't have--I mean, the rail 
system is not there to move forward. The gauges are different 
on rail. Do we have the ability to land those C-5s in the areas 
that we would need to land them for any type of conflict in 
Europe?
    General McDew. If I step back for just a second, 
Congressman, on your question, it is a matter of capacity. So 
our strategic airlift capacity is what it is. It depends on 
what we will ask the community to do and to what level of risk 
we are willing to assume.
    I can always tell you that I could use double the numbers 
of C-17s and C-5s that we have, but that may not be practical. 
One, we can't make any more C-17s, and it may not be practical 
to bring all those airplanes back and modify them. But we may 
not need all of them if we manage the risk on the ones that we 
do have.
    I would say that the number of airplanes we have in the 
backup inventory and our plans to wait to bring them back on 
active inventory for a couple of more years as the Air Force 
can afford them is one that puts us in greater risk than I 
believe we should take. And when we bring them back on active 
inventory, I believe they should go back to an Active Duty unit 
and bring those airplanes back so that they are readily 
available more quickly.
    As I talk to General Scaparrotti about Europe and the 
problem set that he faces, he will tell you that response 
quickly is going to be important. The rail gauge issue in 
Europe is a big one. Most of our command spends time all around 
the globe every single day in looking at our master plan for 
access and points that we can use, ports, rail, and airfield, 
all around the globe.
    So I believe we have some places in Europe we can go. Are 
there as many as we used to have? Probably not. Are we as 
practiced at rolling through some places in Europe as we once 
were? Not, again. But we are going after trying to exercise in 
a different way. General Scaparrotti is leading that effort for 
Europe, but we are also working the other combatant commands 
for similar issues around the globe.
    As we have drawn back forces into the United States, how 
will we project power, how will we project aid, how we can 
project our assistance to these nations that rely on us.
    Mr. Scott. General, if you decided today, if we as a 
country decided today that we were going to bring back a squad 
of those C-17s, how long would it take to have that squad, the 
command and control of the squad, as well as the units ready to 
fly?
    General McDew. I am going to speak slightly out of my lane 
because I am--although I am wearing a nice-looking blue uniform 
right now, I am not in the Air Force this moment, and so I 
would have to defer a little bit to my air component. But I 
believe right now we have not fully drawn down those aviators 
in those Active Duty units that were just stood down about a 
year ago.
    They are slightly overmanned today, but we are going to 
slowly bring those down if we don't do something relatively 
quickly because that is what the budget will do. It will bring 
down to 100 percent manning. If we react today, which I don't 
think we can, we can maybe salvage those crewmembers and not 
take them down with a plan to bring them right back up with the 
airplanes.
    Mr. Scott. So if we act today, it would not take that long 
to bring the units back?
    General McDew. I don't believe so, and I don't want to 
speak too much out of turn because, like I said--but I believe, 
right now, those units, in Charleston in particular, are still 
overmanned with C-17 crew members, and we could probably bring 
those airplanes back out of backup inventory into primary 
inventory and use those crewmembers to still man those 
airplanes.
    Mr. Scott. General, thank you for your service.
    Mr. Chairman, my time is expired. My concern is, if we do 
this in BCT [brigade combat team] numbers, if you take down a 
BCT, it takes a couple of months to take one down, it takes 3 
years to bring it back. And that is my concern with the actions 
we are taking.
    With that, I yield the remainder of my time.
    Mr. Wilson. Thank you, Congressman.
    General McDew. I am not sure that the Air Force has the 
capacity to rapidly generate that many pilots right now anyway 
if we let them all go away.
    Mr. Wilson. Thank you, Congressman.
    And we now proceed to Congresswoman Colleen Hanabusa of 
Hawaii.
    Ms. Hanabusa. Thank you, Mr. Chair.
    And thank you, General, and thank you for acknowledging 
Vickie, who made my first transition here very easy.
    General, I want to talk--I am kind of following up from 
Congressman Garamendi, because one of the things that I am 
interested in is the military sealift portion of it. I am--I 
was interested in your testimony from pages 9 to 10 when you 
talked about the MSP program, and then you also spoke about the 
Jones Act. And you do say, in your testimony, that by 
subsidizing a robust domestic maritime industry, including U.S. 
industrial shipyard infrastructure for building, repairing, and 
overhauling U.S. vessels, and we are of course talking about, 
in terms of the Jones Act, that is the only requirement that we 
build America, and in addition, they also have to have the 
mariners staff.
    So on the MSP program, you have about 60 U.S.-flagged. Is 
that about correct?
    General McDew. That is right.
    Ms. Hanabusa. And we, meaning Congress, has authorized, and 
the military subsidizes it, the program, to the tune of about 
$186 million. We, of course, do not subsidize any Jones Act 
carriers. First, tell me, are we--is there a requirement that 
while they receive the subsidy, that they be manned, quote/
unquote, manned, not to be sexist, but manned with our mariners 
only?
    General McDew. Yes.
    Ms. Hanabusa. So they have our mariners, but they are not 
built in the--in the U.S.
    General McDew. Those ships are not required to be built in 
the U.S., but they have to be U.S.-flagged----
    Ms. Hanabusa. Right.
    General McDew [continuing]. And U.S. mariners on board the 
ships when they carry our goods.
    Ms. Hanabusa. So when we are looking at a situation like, 
for example, we all can recognize that our shipbuilding 
industry depends too heavily on the military, and what we 
really would like to see is a robust commercial aspects of it. 
I am sure my colleagues from San Diego and Norfolk would agree 
with me that what we don't have is that component with the MSP 
program. However, we do subsidize them, correct?
    General McDew. I like to use the word ``stipend.''
    Ms. Hanabusa. Okay. So what is the stipend that they 
receive?
    General McDew. They receive a stipend, basically, to stay 
with us. Congresswoman, as you may know, back in the 1950s, 
there were 1,500 ships sailing under U.S. flag in international 
trade.
    Ms. Hanabusa. That is a little before my time, but okay, I 
will take your word for it.
    General McDew. I am old. 1,500 ships, but today, there are 
only 78 in U.S. international trade. We are still a maritime 
nation, from what I understand, but that is--that is the 
decline you are talking about.
    Ms. Hanabusa. So how does the stipend work? So I mean, what 
do they get the stipend for?
    General McDew. They basically get the stipend to being 
available to move our goods and services when we need them and 
to be ready to go to war when we need them.
    Ms. Hanabusa. But they do not have to be actively engaged 
in any military activity at the point that they receive the 
stipend, though.
    General McDew. No.
    Ms. Hanabusa. So they can be moving commercial goods and 
receive the stipend.
    General McDew. Yes.
    Ms. Hanabusa. So we--and do you know, on an average, what 
the stipend is that we provide to the MSP program? And is it 
like per vessel, per route? How do you do it?
    General McDew. It is per vessel.
    Ms. Hanabusa. Okay.
    General McDew. It is currently $3.2 million per ship--$3.5 
[million] per ship.
    Ms. Hanabusa. Is that in a year?
    General McDew. Per year.
    Ms. Hanabusa. Per year.
    General McDew. It is authorized up to $5 million, and in 
the out-years of the plan, it goes to $5.2 [million], I 
believe.
    Ms. Hanabusa. So they could never move any military goods 
or services, whatever we may call upon them, and they will 
still receive that stipend per year?
    General McDew. Theoretically, that could happen. 
Realistically, I can't imagine it happening. I use those ships 
daily.
    Ms. Hanabusa. But it may not be the same ship. There are 
60-some-odd number of them, correct?
    General McDew. That is right.
    Ms. Hanabusa. So you could be using one or two or whatever 
the number may be.
    General McDew. I can get you the exact numbers, but we have 
a robust use of those 60 ships.
    Ms. Hanabusa. I would appreciate that. But isn't also a 
major component of it that they do not in any way compete with 
our domestic, quote, Jones Act ships? Isn't that a requirement 
under the law that established the MSP program?
    General McDew. I would have to double-check that one. I--
the Jones Act allows us to have additional ships in U.S. trade 
with U.S. flag. It also provides additional mariners. So the 
Jones Act, for me, is part of the overall readiness of our 
maritime industry and our ability to go to war, because it 
provides----
    Ms. Hanabusa. I agree with that, General, but the Jones Act 
has that additional requirement that keeps our industrial base 
there, which your MSP program does not. So what I would like to 
know, if you would, is to provide me all that information. And 
I would also like to understand, with the chair's permission, 
how is it that we are subsidizing non-U.S.-built ships and our 
U.S.-built ships are the ones with all these additional 
constraints on, and it doesn't help my colleagues with the 
great shipbuilding yards in their neighborhood.
    Thank you, Mr. Chair, and I yield back.
    Mr. Wilson. Thank you, Congresswoman.
    We now proceed to Congressman Bradley Byrne of Alabama.
    Mr. Byrne. Good morning, General. We are pleased to have 
you here. Before I get started on my questions, I want to let 
you know my Uncle Jack was a merchant marine officer during 
World War II. Tragically, he and all hands went down on his 
ship while they were performing a very important task for the 
American military. So I am always conscious of the fact that 
these mariners are not only performing an important task, they 
too are in harm's way, and I appreciate that.
    I want to talk to you about the expeditionary fast 
transport vessel, the EPF. I was in Singapore last month and 
saw two of them at dock preparing to be loaded. I would like to 
know how you and TRANSCOM are using those ships. They seem to 
be pretty good ships, seem to be utilized a lot. I would just 
like to know in general how you are using them.
    General McDew. Thanks, Congressman. First, for the 
mariners. During World War II, I believe they were one of the 
largest groups of losses that we had in any single grouping in 
World War II. I think some 9,000-plus mariners were--civilian 
mariners were lost during the war. They are valiant servants of 
this Nation, and we can't do what we do in U.S. Transportation 
Command without those mariners.
    On the vessels that you just mentioned, they are underneath 
the United States Navy. I don't have direct access to those 
ships, those vessels. Our Military Sealift Command and through 
the U.S. Navy channels is how those will get used, but they are 
not part of the TRANSCOM portfolio.
    Mr. Byrne. And let me ask you once again to go over the 
continuing resolution. I was listening very carefully to what 
you said because, you know, we are imminently going to have to 
make a decision about that. If you would, go down a little bit 
further in your testimony and tell us very precisely, as 
succinctly as you can, if we adopted a continuing resolution in 
April, what would it do to you?
    General McDew. And again, Congressman, the--directly, 
because of the transportation working capital fund, which is a 
revolving fund that allows me to continue operating without--
basically, allows me to continue operating yearlong, because I 
have to be ahead of the fighting force. If you--we decided to 
deploy the fighting force, I can't wait for the money to move 
because I have got to move ahead of time.
    So directly, not that much of a direct impact on U.S. 
Transportation Command. Indirectly, if the CR causes the Air 
Force to stop flying, which I just read this morning, if the 
Air Force has to stop flying 6 weeks--the last 6 weeks of the 
quarter, that will impact my ability to maintain ready pilots 
and crews to man those ships--man the airplanes. And 
conversely, if the other services have to take risks in order--
because they don't have the money they thought they were going 
to have to have--because the CR really is a budget cut. You are 
planning on the money from last year, so it is in--somewhat of 
a cut. So if you don't have that money available and you have 
to stop operating, then it starts to impact my ability to do my 
job.
    Mr. Byrne. Well, I know you said it is indirect, but it 
sure feels like it is direct, because you are not able to carry 
out the function that you are supposed to be carrying out as a 
result of it.
    General McDew. I only say it is indirect because I can't 
know how the services are going to take the risks when the CR 
comes on them. I can make assumptions that they might reduce 
this or reduce that, but until they actually get faced with it 
and make the actual decision, then it becomes my problem.
    Mr. Byrne. Do you plan as if you are going to have those 
planes at your disposal? Or do you plan--or do you have 
contingency plans if they are not there?
    General McDew. My contingency plans are always being 
worked. That is the nature of the business we are in. We always 
have to plan, so that is why we have the civil side of our 
work. If--you know, if I don't have the military side, I can, 
through the Civil Reserve Air Fleet, potentially get after some 
additional civilian aircraft to do that if we are in a 
permissive environment. If it is nonpermissive, then our next 
step would be the Guard and Reserve. There is a lot of options 
we can take, but CRs can start to impact a lot of those things 
other than the civil sector.
    Mr. Byrne. Well, I hope that we avoid that----
    General McDew. I do too.
    Mr. Byrne [continuing]. For a lot of different reasons.
    We appreciate what you do, and please let us know what we 
can do further to support your very important component of 
defending the United States of America.
    And I yield back, Mr. Chairman.
    Mr. Wilson. Thank you, Congressman.
    We now proceed to Congressman Don McEachin of Virginia.
    Mr. McEachin. Thank you, Mr. Chairman.
    General, I am a freshman, and so I am trying to make sure I 
understand about all sorts of things and learn about all sorts 
of things. Can you help me understand to what extent TRANSCOM 
is reliant on civilian facilities and infrastructure?
    General McDew. Broadly, Congressman, and don't be reluctant 
to ask me really strange sounding questions. It is not a simple 
portfolio, although it seems to be simple on the surface. We 
rely on just about everything this Nation has to offer when it 
comes to infrastructure: civilian rail, trucking, civilian air. 
So all of that infrastructure that would impact what most 
people would think would be the economic viability of a 
commercial company is actually part of national security, and 
in, for my case, national defense and our ability to project 
power in war.
    We can't move an Army unit, we can't move Marines or 
anything through this country without using some commercial 
port, some commercial rail, or some commercial trucking 
company.
    Mr. McEachin. Well, this then may be a difficult question 
for you to answer, but perhaps not. Do you see any significant 
investments in civilian infrastructure that is needed to help 
you complete your mission?
    General McDew. We always need improvements in rail, road, 
seaports. We are always working with commercial entities to 
ensure that the latest technology is incorporated, that cyber 
defenses are incorporated in these.
    My request, if I could make one of you, is anytime you are 
looking at improving or changing something in the commercial 
industry, think about the impact to national security.
    For me, it is national security. Most agencies don't think 
of all of those mom-and-pop trucking companies as potentially 
being something that may take our Nation to war. That is the 
way I view it, Congressman.
    Mr. McEachin. Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. Thank you very much, Congressman.
    We proceed to Congressman Duncan Hunter of California.
    Mr. Hunter. Thank you, Mr. Chairman.
    General, good to see you. I remember in 2004, when I 
deployed, I was the embarkation officer and dropped off our 
artillery pieces on a railroad in San Diego, which met us in 
Kuwait, which we then went up into Iraq with. So I have got an 
on-the-ground in touch with this.
    I guess my first question is, if you had to do North Korea 
and Russia at the same time, do you have enough ships? Pretty 
easy.
    General McDew. No. No.
    Mr. Hunter. Okay. How short would you be?
    General McDew. It depends. We really have to take a look at 
the actual scenario and what effects you would have to try to 
make and what timing. If it is completely simultaneously, I 
don't know if there is enough ships in the world. But depending 
on what effects at what time scale and what the TPFDD [time-
phased force deployment document] would have to go through, we 
would have to see. And I can get the analysis folks to take a 
look at it, and I am sure we can come up with that number.
    Mr. Hunter. And if you just had to do one of them and you 
calculate attrition, what is the attrition rate that you 
calculate? Let's just take Korea, because they are being crazy.
    General McDew. I am ashamed to say, up until recently, we 
didn't account for attrition. We assumed----
    Mr. Hunter. You assumed that none of the ships would get 
sunk.
    General McDew. We have never battled lack of domain 
dominance for this Nation in 70-plus years. We are there now. 
We are in a different mindset today. We are looking at a 
different enemy, a different fight. We have to think 
differently. We are now incorporating attrition, but not before 
now.
    Mr. Hunter. So when you look at the Ready Reserve fleet and 
the MSP, is attrition going to be built into your next 
recommendation to Congress of what we authorize and appropriate 
for those ships?
    General McDew. It has to be. It doesn't necessarily have to 
be an increase.
    Mr. Hunter. Well, I am assuming your numbers are going to 
go up.
    General McDew. Well, it also has to mean we have to change 
our tactics, techniques, and procedures. Not everything is an 
increase in numbers. Sometimes it is just how we employ, how we 
deploy. The fact that you still remember how to put some stuff 
on a ship----
    Mr. Hunter. Not how.
    General McDew. I would like to bring you back to the G-4 
[Army Deputy Chief of Staff for Logistics], but----
    Mr. Hunter. I just got it there. My Marines did it. I 
didn't.
    General McDew. But we don't have--actually, many people 
left in the military who remember what it was like to actually 
deploy. What we have been in for the last 15, 16 years is 
sustainment. That is a completely different proposition.
    Mr. Hunter. Second question, totally different thing. What 
ability do you have to bring life support in in big amounts, 
giant massive quantities of life support or ammo--let's just 
call it ammo, life support, beans, bandages, bullets to a--if 
you don't have a port and you don't have an airstrip?
    General McDew. We are challenged if you don't have a port 
or an airstrip. There is always airdrop. There is ability to 
get in behind lines, but we have got to look at the contested 
environment and the ability for the enemy to deny us that, the 
ability to get in there. If we don't have air superiority, we 
don't have a lot of things. And so I rely on that still being a 
fact, but if it isn't, we start to look at different ways to 
bring problems to bear and bring solutions to bear.
    Another piece, you talked about bringing medical 
evacuation. That is another part of my portfolio that has been 
underrepresented, probably by me as well, in understanding the 
impact of our ability to evacuate large numbers of people from 
a hostile zone.
    So we are looking at all those things, and I believe we 
have plans that take care of some of them, but this antiaccess, 
denial by an adversary is new for all of us, and we have to 
think differently.
    Mr. Hunter. I would just throw out there, there is a thing 
called the Aeroscraft, the ability--I mean, it is a giant 
blimp, basically, that can hold three or four tanks. It can 
hold a lot of supplies and stuff, and they can just drop in, if 
you have air superiority, obviously. A floating airship is easy 
to shoot down, right?
    General McDew. Yeah. Otherwise, they call those targets.
    Mr. Hunter. Right. Last thing. Do you think--would you say 
there is anything more important than the Jones Act for the 
maritime industrial base in U.S. law at all?
    General McDew. There are several pieces of U.S. law that 
are part of the industrial base, and it is not just one. The 
Jones Act is probably the anchor for it. But without the Jones 
Act, without the Maritime Security Program, without cargo 
preference, our maritime industry is in jeopardy and our 
ability to project the force is in jeopardy. If we think we 
need to project our force with U.S.-flagged vessels, with U.S. 
mariners on board, we need all of those things right now to 
secure that.
    Mr. Hunter. And your stipend, you said, is like $3.2 
million right now for MSP. We have authorized and appropriated 
$5 million. We have upped that. If these U.S.-flagged vessels 
were not doing commercial work at all, they were just sitting 
there, what would the stipend have to be?
    General McDew. You could debate the number a little bit, 
but it would be upwards of $7-, $8- to $10 million a year.
    Mr. Hunter. If it just sat there?
    General McDew. Yeah.
    Mr. Hunter. Okay. Thank you, General.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. Thank you, Congressman.
    We now proceed to Congressman Don Norcross of New Jersey.
    Mr. Norcross. Thank you, Chairman.
    General, thank you for being here today. Very sobering. The 
things that appear not to be immediately in front of us tend to 
fall off the edges, whether it is deferred maintenance or 
building air transportation, but as we all know, we are only as 
strong as our weakest link.
    What area in your portfolio keeps you up at night?
    General McDew. Air refueling tankers.
    Mr. Norcross. And that doesn't get better for another 3 
years, at the earliest?
    General McDew. At the earliest. If we had 1,000 air 
refueling tankers, it might be enough. But if you look about 
any contingency around the world, so you pick a spot in the 
world, and you bring up any kind of issue. If you had a 
simultaneous or even a competing regard anywhere else in the 
world, your tanker UTE [utilization] rate goes up to a place 
that I can't even--that I can imagine, but the numbers are 
daunting, because any significant battle also brings up the 
rate of defense of the homeland, and any corresponding COCOM 
near that area has to bring up their defenses. All of that 
needs air refueling tankers.
    Mr. Norcross. So when your recommendations go in, as you 
heard earlier, for the NDAA, is that your largest and most 
focused request?
    General McDew. It would be 1-A. One would be getting back 
the C-5s off backup inventory and into active inventory; 1-A 
would be accelerating the tanker program as best we can and 
taking us out of the risk bathtub we have been in for a while 
on tankers. We have made some of it intentionally, but now we 
have got to climb our way out.
    Mr. Norcross. We read recently where that might be even 
pushed back a little further due to a number of technical 
issues in the production line. When is the earliest, given what 
you have seen, you think the first one will be delivered?
    General McDew. I wish I could really tell you. There is a 
projection by the manufacturer, and there is a projection by 
the United States Air Force, and they are not the same 
projections right now. And I would hate to speculate between 
the two of them. The Air Force is primarily working with Boeing 
to make sure that that is as quick as they can make it.
    Mr. Norcross. What is plan B?
    General McDew. There are some programming actions out there 
on a plan B that we are probably not going to be able to 
execute. You know, right now, the plan to retire the KC-10s may 
have to be revisited, although I understand the expense that is 
going to come with trying to keep the KC-10s around longer than 
the plan, but we have to find a way to climb out of the bathtub 
if the KC-46 is not going to be online in a reasonable amount 
of time to allow us to potentially accelerate that recap. And 
at 12 aircraft per year, that is going to take a long time. We 
built 700 of them in 7 years in the 1960s, and we are looking 
to recap them at 12 a year.
    Mr. Norcross. So let me understand this. Your biggest 
concern are the refuelers, and yet we are not making a decision 
to keep them active enough to take that risk off your plate?
    General McDew. The decision is there for the next few 
years. I don't recall, and I'll get you the exact date, that 
the Air Force plans to retire the KC-10, but it was also based 
on bringing the KC-46 on. So it may be shifting as we speak. I 
just don't want to speak for the Air Force right now on that 
particular issue because those negotiations are going on almost 
minute by minute.
    Mr. Norcross. Very sobering.
    Thank you. I yield back.
    Mr. Wilson. Thank you, Congressman.
    We now proceed to Congresswoman Martha McSally of Arizona.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you for your testimony and your service, General 
McDew. It is good to see you. We moved a lot of assets out of 
the European theater over the last years, thinking that there 
is a lasting peace there, to include A-10s and other fighters 
and Army units. And now, as part of the European Reassurance 
Initiative, we are deploying them back on a rotational manner.
    So my concern is with the strains that you have talked 
about today, what tax does that have on TRANSCOM to be 
continuously deploying units to meet the requirements for 
security and reassurance and dealing with Russian aggression in 
Europe? You know, I think we really need to, and this is really 
more the services, do a cost-benefit analysis here. But I just 
want to know, have you quantified that tax both on tankers and 
cargo to be constantly moving units back and forth now versus 
having them stationed there?
    General McDew. Congresswoman McSally, well, first of all, 
it is good to see you again. You may not remember having met me 
20-some-odd years ago, but Lieutenant McSally, when you were 
first selected to go fly combat aircraft, there was a young 
captain in the Pentagon who researched all the women who could 
have actually selected combat aircraft, if it had been made 
available to them at the time. It was Captain Darren McDew that 
actually did some of that research back in the day, so it is 
good to see you where you are now.
    Ms. McSally. Good to see you again, too. That's great.
    General McDew. So some of that tax is not necessarily a 
tax. One of the things that we have realized, that we have been 
in 15 years of sustainment, and so some of it we need to 
exercise the muscle again. And as long as these rotations are 
planned and scheduled, it is not that bad, and it is actually 
good.
    We have forgotten, units, how to move themselves from 
Alaska through the continental United States to a port, get on 
a ship, and move to Europe or the Pacific. That muscle memory 
is a good exercise for the Army. It is not a bad one for the 
enterprise of ours. We recently tried one of those and blew a 
bunch of tires on a bunch of Stryker vehicles because of things 
that we had forgotten how to do.
    So not all of it is a bad tax. What is bad for us is if it 
is emergent, not planned, like say for a real war contingency.
    Ms. McSally. Or if another contingency emerges, right?
    General McDew. Right.
    Ms. McSally. In a resource-constrained environment, you 
know, that may be nice to do, but there is a cost with that as 
well, right? Have you captured what that cost is of the 
rotation versus what it would be steady state if we weren't 
doing that?
    General McDew. Not really, because that would take us 
assuming what level of presence the Army or the Department of 
Defense would like to have in Europe.
    Ms. McSally. Yeah.
    General McDew. You know, would it be the 300,000-plus we 
used to have? Would it be something short of that? Given those 
assumptions, we could probably make that calculation fairly 
easily.
    Ms. McSally. Great. Thank you.
    I know votes are being called, so I will yield back. 
Thanks, sir. Good to see you again.
    Mr. Wilson. Thank you, Congresswoman.
    We now proceed to Congresswoman Vicky Hartzler of Missouri.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Thank you, General, for all that you do. I wanted to hone 
in just a little bit on the rail situation. I have heard some 
concerns from some other commanders in National Guard units and 
such from my district who were over there in the Baltics, and 
they were explaining the difficulty with the different rail 
gauges. Can you address what steps are being taken to rectify 
this situation?
    General McDew. Congresswoman, one of the first things we 
are doing is realizing that the problem is a problem.
    Mrs. Hartzler. Okay.
    General McDew. So we haven't been in Europe in this manner 
in a while, and so it is realizing--we know that the rail 
gauges are different, but what has transpired in Europe has 
been similar to what has transpired in other places around the 
world. If you don't use it for a while, you have got to go back 
and figure out how to use it again, and how it is being used, 
i.e., what is being contracted out, what is owned by the 
government of the nation that we are trying to go through. What 
are the ways to connect those dots? That's what we are trying 
to relearn.
    The rail gauge issue has been around for a long time, but 
we had enough people there before and we had enough access and 
we had enough kind of muscle memory that it wasn't as big a 
problem as when you are trying to start all over again.
    Mrs. Hartzler. How does that tactically work now? What plan 
do you anticipate doing getting to the border and unloading and 
putting it on their railcars that do match? Or are we looking 
at changing the types of railcars that have, you know, perhaps 
a movable gauge capability? I don't know, but how are you going 
to address this?
    General McDew. We are not there with the movable rail 
gauge, but maybe I can have my team start to work on that one. 
We would have to transload onto railcars that would be 
available to move on that rail gauge, and we have contingency 
plans for that, but we have got to go back and look at it 
again.
    One of the things that we are starting to realize--not 
starting to realize--we had all these management headquarters 
cuts. And I understand efficiency. I understand budgets and all 
that stuff. But what has happened is our ability to think, our 
ability to project different, to go after those problem sets, 
is starting to slow down. So we can identify the problem. It 
takes us a while to get to that as we are addressing all the 
myriad of problems we have.
    And so my request is, the other thing is, as we cut all the 
commands and we brought down their manpower, where did they 
make those cuts? I would guarantee you not many of them tried 
to salvage their logistics transportation planners.
    Mrs. Hartzler. Sure.
    General McDew. And so what I am finding is I am trying to 
help all those other combatant commands try to get after these 
problem sets too.
    Mrs. Hartzler. Okay. Just a quick question about ``the last 
tactical mile.'' It is my understanding that DOD has not 
incorporated those distribution metrics into their plan, and it 
is the responsibility of the distribution process owner to 
oversee the overall effectiveness. So what progress is 
USTRANSCOM making in working with the combatant commands to 
routinely collect distribution performance information for the 
last tactical mile?
    General McDew. I am thankful that the combatant commands 
are thinking differently than when TRANSCOM was given that 
moniker of the distribution process owner. When TRANSCOM was 
first given that moniker of the distribution process owner, not 
everybody was happy about it. And the reason the word is 
``owner'' and not ``commander'' or ``director'' is because they 
wanted TRANSCOM to have less power in some of those areas to 
make decisions.
    Today, moving forward, all the combatant commands 
understand how much we need a global person to look at 
transportation writ large. At the last distribution process 
owner executive board, I let the team know of all the people 
who were represented, that we are going to make some decisions 
now about a number of things, and many of them are welcoming 
TRANSCOM's role to look more deeply at the end-to-end solution. 
That wasn't there a decade ago when we got this decision.
    Mrs. Hartzler. Thank you very much. I'll yield back.
    Mr. Wilson. Thank you, Congresswoman.
    We will now be concluding with Congresswoman Elise Stefanik 
of New York.
    Ms. Stefanik. Thank you, Chairman Wilson.
    And thank you, General McDew, for your service and for your 
testimony today. In your testimony, you discussed how our 
enemies continue to use our dependence on the cyber domain 
against us and that the greatest challenge for TRANSCOM is the 
threat of an attack in the cyber domain. Obviously, we have 
some unique challenges in cyber, especially when compared to 
the rest of the DOD. Can you describe some of the ongoing 
activities related to cyber and then, specifically, how are you 
working with Cyber Command to better protect your networks?
    General McDew. Congresswoman, our networks are fairly well-
defended. CYBERCOM, I have great confidence in what they are 
doing to protect our networks. It is the rest of my network 
that I am most concerned about. It is the part outside the 
Department of Defense network.
    I extend throughout the entire country and around the 
world. Most of it on commercial dot-com networks is where I 
have to do my business. If a combatant command were to give me 
all their best secret information, I have then still got to 
contract it out. And right now, that chasm between DOD and DHS 
and how we think about cyber and what authorities we have to 
bridge that gap are my most relevant concern.
    Ms. Stefanik. And then just quickly before I have to run to 
votes, I want to ask specifically what the impact of a CR would 
be on your cyber efforts. Similar to Mr. Byrne's questions, 
this is an issue that we are going to continue grappling with, 
and we know that CRs are devastating to DOD, but I am asking 
specifically when it comes to cyber.
    General McDew. Well, that would be a direct impact on our 
cyber protection force, that Cyber Command puts a force against 
protecting our networks. The training and resourcing of that 
team would slow down probably, and the training would be 
impacted. I would imagine that would eventually get to maybe a 
less defending of our network, but I would hope that they would 
find a way to get around it.
    Ms. Stefanik. Thank you. I yield back.
    Mr. Wilson. And thank you very much, Congresswoman 
Stefanik.
    And, General, thank you very much for being here. And we 
are in the midst of votes. But I am just so grateful for the 
members who have taken time to stay the entire time, their 
dedication and appreciation of your service.
    We are adjourned.
    [Whereupon, at 10:13 a.m., the subcommittees adjourned.]
</pre></body></html>
